Before the Committee on Transportation and Infrastructure
Subcommittee on Aviation
United States House of Representatives

For Release on Delivery
Expected at
10:00 a.m. EDT
                          Regional Air Carriers and
Thursday
June 11, 2009             Pilot Workforce Issues
CC-2009-075




                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Chairman Costello, Ranking Member Petri, and Members of the Subcommittee:

We appreciate the opportunity to testify today regarding regional air carriers and pilot
workforce issues. We would also like to discuss what our past work has shown with
regard to the Federal Aviation Administration’s (FAA) oversight of the aviation
industry. Ensuring that airlines safely meet the demand for air travel is of paramount
importance to the flying public and the national economy; this remains one of the top
priorities for the Department of Transportation.

Safety is a shared responsibility among FAA, aircraft manufacturers, airlines, and
airports. Together, all four form a series of overlapping controls to keep the system
safe. The past several years have been one of the safest periods in history for the
aviation industry. This is largely due to the dedicated efforts of the professionals
within FAA and throughout the industry as well as significant advances in aviation
technology.

In January, we witnessed a dramatic example of aviation safety at its best when U.S.
Airways flight 1549 made an emergency landing in the Hudson River, and,
miraculously, all 155 passengers and crew survived due to the skillful efforts of the
pilot and crew. However, the tragic accident in February of Colgan flight 3407,
which resulted in 50 fatalities, underscores the need for constant vigilance over
aviation safety on the part of all stakeholders.

Last month, the National Transportation Safety Board (NTSB) held a preliminary
hearing into the cause of that accident, in which some evidence suggested that pilot
training and fatigue may have contributed to the crash. The NTSB has identified
these issues as areas of concern for all air carriers; however, they are particularly
critical at regional carriers. The last six fatal Part 1211 accidents involved regional air
carriers, and the NTSB has cited pilot performance as a potential contributory factor
in four of those accidents.

As a result of that hearing, Mr. Chairman, you requested that our office begin a
review to include FAA’s oversight of commuter and regional pilot training programs,
the number of training hours needed before a pilot can assume pilot-in-command
responsibilities, and how U.S. airlines update pilots on the latest technologies on the
aircraft they operate. We are also reviewing the information that pilots are required to
provide airlines and whether it is sufficient to verify pilot employment and training.
In addition, you requested that we review FAA regulations and airline policies
regarding crew rest and fatigue issues. We are in the preliminary stages of this
extensive review, and, as part of the discussion today, we would like to address how
we intend to proceed with that audit.

1
    14 CFR 121 Operating Requirements: Domestic, Flag, and Supplemental Operations. This FAA regulation governs
    commercial air carriers, including regional air carriers, with primarily scheduled flights.


                                                                                                             1
A key focus of this review, Mr. Chairman, is that FAA maintains it has one level of
safety for all types of air carrier operations. Yet, we have overseen the application of
that standard for years and have concerns. In short, our past work has disclosed
serious lapses in FAA’s safety oversight and inconsistencies in how its rules and
regulations are enforced. Today, I would like to cover three areas: (1) pilot workforce
issues and differences between mainline and regional air carrier operations,
(2) vulnerabilities we have previously identified in FAA’s oversight of safety, and
(3) our plan to address the Subcommittee’s new request for additional safety work.

PILOT WORKFORCE ISSUES AND OPERATIONAL DIFFERENCES
BETWEEN REGIONAL AND MAINLINE CARRIERS
As mainline carriers continue to cut their capacity in response to the current economic
downturn, regional airlines constitute an increasingly important proportion of
operations in the U.S. National Airspace System. Today, regional flights represent
one half of the total scheduled flights across the country, and regional airlines provide
the only scheduled airline service to more than 400 American communities.
Additionally, regional airlines provide passenger air service to communities without
sufficient demand to attract mainline service. Regional carriers tend to fulfill two
roles: (1) delivering passengers to the mainline airline’s hubs from surrounding
communities and (2) increasing the frequency of service in mainline markets during
times of the day or days of the week when demand does not warrant use of large
aircraft.

These smaller airlines typically conduct business as feeder airlines, contracting with a
major airline and operating under their brand name in what is essentially a domestic
code share arrangement. Code sharing is a marketing arrangement in which one air
carrier sells and issues tickets for the flight of another carrier as if it were operating
the flight itself. Under both international and domestic code share agreements, a
passenger buys a ticket from one carrier, but the actual travel for all or a portion of the
trip could be with another carrier’s aircraft and crew. For example, Colgan flight
3407 was operating as a Continental Connection flight.

We reported 10 years ago on carriers’ growing use of international code share
agreements as a means to increase profit while expanding their network and offering
passengers more seamless and efficient international travel services. 2 While such
agreements were beneficial, we reported that safety was not treated as a major factor
in the Department’s code share approval process, and FAA did not take an active role
in the approval or oversight of these agreements. In 1999, Chairman Oberstar
proposed a bill, which would have required U.S. air carriers to conduct safety audits
of their foreign code share partners as a condition of approval of a code share

2
    OIG Report Number AV-1999-138, “Aviation Safety Under International Code Share Agreements,” September 30, 1999.
    OIG reports and testimonies are available on our website: www.oig.dot.gov.


                                                                                                                 2
agreement. Subsequently, the Department established a Code Share Safety Program
implementing this requirement.

Domestic code shares between major and regional carriers follow a similar business
model, with the focus on a more seamless travel experience. However, a significant
difference is that FAA certificates and oversees both parties to these agreements. Yet,
according to industry sources, FAA has no role in the contractual agreements. This is
a potential concern since the safety implications of these agreements are unknown.
We are examining this issue as part of the review you requested, Mr. Chairman.

Last month’s NTSB hearing brought to light the need to closely examine the
regulations governing pilot training and rest requirements and the oversight necessary
to ensure their compliance. This is a particular concern at regional carriers since the
last six fatal Part 121 accidents involved regional air carriers (see table 1 below), and
the NTSB has cited pilot performance as a potential contributory factor in four of
those accidents.

              Table 1. Part 121 Accidents Involving Regional Carriers
Accident      Regional Carrier         Accident Site      Fatalities         Potential Factors
  Date
12-Feb-09      Colgan Air Inc        Buffalo, NY             50        Not yet determined. Training and
              (DBA* Continental                                        pilot fatigue issues have been
                Connection)                                            raised.

27-Aug-06        Comair Inc          Lexington, KY           49        Pilot performance, non-pertinent
                 (DBA Delta                                            conversation during taxi.
                 Connection)

19-Dec-05      Flying Boat Inc       Miami, FL               20        Deficiencies in the company’s
                (DBA Chalks                                            maintenance program.
               Ocean Airways)

19-Oct-04        Corporate           Kirksville, MO          13        Pilots’ unprofessional behavior
                Airlines (now                                          during the flight and fatigue.
                Regions Air)


14-Oct-04     Pinnacle Airlines      Jefferson City, MO       2        Pilots’ unprofessional behavior,
               (DBA Northwest                                          deviation from standard operating
                   Airlink)                                            procedures, and poor airmanship.
              repositioning flight


 8-Jan-03       Air Midwest          Charlotte, NC           21        Deficiencies in company’s
              (DBA US Airways                                          oversight of outsourced
                 Express)                                              maintenance.
*Doing Business As (DBA)




                                                                                                         3
In addition to these accidents, there were two, non-fatal accidents in 2007 involving
regional air carriers. In both of these accidents, the NTSB concluded that pilot fatigue
was a contributing factor.

While we have had only a short time to address the Subcommittee’s request to
examine these issues, we have identified operational differences between regional and
mainline carriers. These include differences in operations and flight experience and
potential differences in pilot training programs. Our review will examine FAA’s role
in determining whether air carriers have developed programs to ensure pilots are
adequately trained and have sufficient experience to perform their responsibilities.

Differences in Operations, Pilot Fatigue, and Flight Experience
Regional carriers typically perform short and medium hauls to hub airports. This
could result in many short flights in 1 day for a pilot with a regional air carrier. While
there have been multiple studies by agencies such as the National Aeronautics and
Space Administration that concluded that these types of operations can contribute to
pilot fatigue, FAA has yet to revise its rules governing crew rest requirements.

FAA last attempted to significantly revise flight duty and rest regulations in 1995, but
the rule was never finalized and little or no action has been taken since then. Yet,
pilot fatigue remains high on NTSB’s list of most wanted safety improvements. As
we begin our audits in response to the Subcommittee’s request, we will evaluate these
operations, their potential effects on pilot fatigue, and FAA’s oversight of air carrier
programs established to meet the current flight and duty rest regulations.

Coupled with potential fatigue issues, another defining factor of regional air carriers is
that their pilots tend to have less experience than pilots with mainline air carriers.
Generally, pilots are primarily interested in using regional air carrier experience as a
stepping stone to the more lucrative pay at a major air carrier. We will also address
the potential impact this issue could have on safety during our pending audit.

Potential Differences in Training Programs
To fly for a regional or mainline air carrier, a pilot must have a commercial pilot’s
license, at a minimum. To obtain a commercial pilot’s license, a candidate must have
at least 250 hours of flight time. However, many air carriers require more stringent
licensing requirements and may require pilots to have an Airline Transport Pilot’s
license, which requires a minimum of 1,500 flight hours.

Once pilots have been hired by an air carrier, they are required to undergo training
provided by the airline that has been approved by FAA and meets certain minimum
requirements. Every Part 121 certificate holder, which includes all scheduled
operations with aircraft seating 10 or more passengers, must establish and implement
a training program that ensures each crewmember is adequately trained to perform his


                                                                                        4
or her assigned duties. FAA regulations only provide general subjects to be covered
during various training phases and minimum hours for the different training phases.
The broad language in the regulations leaves air carriers significant latitude in
formulating their training programs.

Additionally, air carrier training programs must be approved by the carrier’s FAA
inspector. However, the lack of more specific requirements in the regulations may
hinder FAA inspectors’ ability to determine whether air carriers’ established programs
will ensure crewmembers are “adequately” trained. As we delve deeper into this issue
in our upcoming audit, we will analyze more closely the degree of variance of air
carrier training programs.

FAA regulations also provide different instructional hour requirements for different
types of aircraft. For example, pilots of piston engine aircraft are only required to
have 64 hours of initial ground training, and those flying turbo-propeller powered
aircraft must have 80 hours. Jet aircraft pilots must have 120 hours of initial ground
training, or 50 percent more than turboprops, as shown in table 2 below.

                Table 2. Air Carrier Training Hour Requirements
                                by Aircraft Type
               Training Type    Piston Engine    Turboprop     Turbojet
              Initial Ground          64            80           120
              Training
              Pilot-In-              10              15            20
              Command Initial
              In-Flight
              Training &
              Practice
              Recurrent              16              20            25
              Ground Training

Similar differences in instructional hours are found among in-flight and recurrent
training requirements. Other turboprop crewmembers, such as flight attendants and
dispatchers, are also required to receive fewer instructional hours of training than the
crewmembers of jet aircraft. The differences in instructional hours for turboprops are
significant distinctions because 23 percent of regional aircraft are turboprop aircraft
and 24 percent of U.S. airports receive scheduled air service only from turboprop
aircraft operations. Colgan flight 3407 was a turboprop aircraft.

While we need to complete additional work in this area, we are concerned that the
broad language of the requirements could result in wide variances between air carrier
training programs. We will further focus our efforts to identify any differences and
their potential impact on safety.




                                                                                      5
VULNERABILITIES IN FAA’S OVERSIGHT OF SAFETY
Although there are differences in the operations for regional and mainline carriers,
FAA maintains it has one level of safety for all types of air carrier operations. While
FAA has made progress toward improving aspects of its safety oversight, such as
clarifying guidance to inspectors who monitor air carriers and repair stations, we
continue to find weaknesses in FAA’s safety oversight and inconsistencies in how its
rules and regulations are enforced.

For example, a year has passed since we last testified before this Subcommittee
regarding FAA’s oversight of the aviation industry. 3 That hearing highlighted
weaknesses in FAA’s national program for risk-based oversight, known as the Air
Transportation Oversight System (ATOS), and in airline compliance with safety
directives. While the safety lapses discussed at the hearing indicated problems with
one airline’s compliance, many stakeholders were concerned that they could be
symptomatic of much deeper problems with FAA’s air carrier oversight on a
systemwide level. Since then, our work has focused on determining whether the kind
of problems we reported on last year are unique to one air carrier and one FAA
oversight office. We have determined the problems were not limited to that office
and carrier, and we continue to believe the key to addressing this problem is better
national FAA oversight.

In preparation for this hearing, we have identified serious vulnerabilities in six critical
FAA programs for oversight of the aviation industry: risk-based inspections, repair
stations, aging aircraft, on-demand operations, disclosures of safety violations made
through the Aviation Safety Action Program (ASAP), and whistleblower complaints.

Vulnerabilities in FAA’s National Program for Risk-Based Oversight—
The Air Transportation Oversight System
More than 10 years ago, FAA initiated ATOS, its risk-based oversight approach to air
carrier oversight. ATOS was designed to permit FAA to focus inspections on areas of
highest risk and maximize the use of inspection resources. We have always supported
the concept of ATOS as FAA would never have enough inspectors to continuously
monitor all aspects of a constantly changing aviation industry. However, since 2002,
we have reported that FAA needs to develop national oversight processes to ensure
the program is effectively and consistently implemented. In 2005, we found that
inspectors did not complete 26 percent of planned ATOS inspections—half of these
were in identified risk areas, such as maintenance personnel qualifications. 4



3
    OIG Testimony Number CC-2008-046, “Actions Needed To Strengthen FAA’s Safety Oversight and Use of Partnership
    Programs,” April 3, 2008.
4
    OIG Report Number AV-2005-062, “FAA Safety Oversight of an Air Carrier Industry in Transition,” June 3, 2005.


                                                                                                               6
Last year, we reported that weaknesses in FAA’s implementation of ATOS allowed
airworthiness directive (AD) compliance issues in Southwest Airlines’ (SWA)
maintenance program to go undetected for several years. 5 We found that FAA
inspectors had not reviewed SWA’s system for compliance with ADs since 1999. In
fact, at the time of our review, FAA inspectors had not completed 21 key inspections
for at least 5 years. While FAA has subsequently completed some of these
inspections, 4 of the 21 inspections were still incomplete at the time we testified
before this Subcommittee; some had not been completed for nearly 8 years.

We have recommended that FAA implement a process to track field office inspections
and alert the local, regional, and Headquarters offices to overdue inspections required
through ATOS. While FAA has implemented a system to track field office
inspections, it is unclear whether it has taken any actions in response to identified
overdue inspections. At the request of the Subcommittee, we are currently
performing a review of FAA’s implementation of ATOS and will address this issue as
part of that review.

Thus far, we have determined that lapses in oversight inspections were not limited to
SWA—FAA oversight offices for seven other major air carriers also missed ATOS
inspections. We have found that these missed inspections were in critical
maintenance areas such as AD Management, the Continuing Analysis and
Surveillance System (CASS), 6 and the Engineering and Major Alterations Program.
Some inspections had been allowed to lapse beyond the 5-year inspection cycle by
nearly 2 years.

As part of this review, we are also assessing FAA’s recent transition of regional air
carriers into the ATOS program. FAA inspectors responsible for oversight of large,
commercial air carriers have been using this risk-based system for several years, but
the majority of FAA offices responsible for oversight of regional air carriers have
only recently transitioned to ATOS. This is a completely new way of conducting
oversight, and inspectors we interviewed stated that ATOS applies more to large
carrier operations and needs to be revised to fit the operations unique to smaller air
carriers. We plan to issue our report later this year.

Ineffective Oversight of Repair Stations
Our work has also shown that FAA’s oversight of repair stations has struggled to keep
pace with the dynamic changes occurring in that industry. Repair stations are rapidly
growing as a primary source for aircraft maintenance as air carriers increasingly
outsource maintenance in an effort to reduce costs. This is an area of particular
concern for regional carriers since they outsource as much as 50 percent of their
5
    OIG Report Number AV-2008-057, “Review of FAA’s Oversight of Airlines and Use of Regulatory Partnership
    Programs,” June 30, 2008.
6
    FAA requires air carriers to maintain a CASS, which monitors and analyzes the performance and effectiveness of their
    inspection and maintenance programs.


                                                                                                                      7
maintenance to repair stations. The NTSB’s investigation into the January 2003 crash
of Air Midwest flight 5481 (a regional air carrier), in which there were 21 fatalities,
identified serious lapses in the carrier’s oversight of outsourced maintenance as a
contributory cause of that accident.

In 2005, FAA established a risk-based oversight system for repair stations. However,
this system does not include non-certificated repair facilities that perform critical
maintenance. 7 To address this concern, FAA issued guidance in 2007 that required
inspectors to evaluate air carriers’ contracted maintenance providers and determine
which ones performed critical maintenance and whether they were FAA-certificated.
However, the guidance did not provide effective procedures for inspectors to do so,
and FAA is now trying to develop a new method to capture these data.

Another issue we identified was air carriers’ inadequate training of mechanics at non-
certificated facilities. We found carriers provided from as little as 1 hour of video
training for mechanics to as much as 11 hours of combined classroom and video
instruction.

In 2008, we reported that while FAA established a system for air carriers to report the
volume of outsourced repairs, it was inadequate because air carriers are not required
to report this information.8 When they do voluntarily report it, FAA does not require
that they list all repair stations performing repairs to critical components9 or that FAA
inspectors validate the information. FAA is reevaluating this system in response to
our report and expects to implement system improvements by the end of August 2009.

Gathering adequate data to target inspections is important since FAA does not have a
specific policy governing when inspectors should initially visit repair stations
performing substantial maintenance for air carriers. We found significant delays
between FAA’s initial approval of repair stations and its first inspections at those
locations. For example, during a 3-year period, FAA inspectors reviewed only 4 of
15 substantial maintenance providers used by 1 air carrier. Among those uninspected
was a major foreign engine repair facility that FAA inspectors did not visit until
5 years after it had received approval for carrier use—even though it had worked on
39 of the 53 engines repaired for the air carrier.

We again recommended that FAA develop and implement an effective system to
determine how much and where critical maintenance is performed. In addition, FAA

7
    OIG Report Number AV-2006-031, “Air Carriers’ Use of Non-Certificated Repair Facilities,” December 15, 2005.
8
    OIG Report Number AV-2008-090, “Air Carriers’ Outsourcing of Aircraft Maintenance,” September 30, 2008.
9
    For the purposes of our report, we used the term “critical components” to identify those components that are significant to
    the overall airworthiness of the aircraft, such as landing gear, brakes, and hydraulics. FAA does not use this term or
    include these types of components in its definition of substantial maintenance. FAA defines substantial maintenance as
    major airframe maintenance checks; significant engine work (e.g., complete teardown/overhaul); major alterations or
    major repairs performed on airframes, engines, or propellers; repairs made to emergency equipment; and/or aircraft
    painting.


                                                                                                                             8
must ensure that inspectors conduct initial and follow–up inspections at substantial
maintenance providers and perform detailed reviews of air carrier and repair station
audits and corrective actions. In response to our report, FAA is reviewing its
procedures for opportunities to strengthen its guidance. However, it does not expect
to complete these reviews until the fourth quarter of this fiscal year.

Differences in Oversight of Aging Aircraft
Following the December 2005 fatal crash of a regional airline, Chalks Ocean
Airways, we identified vulnerabilities in FAA’s oversight of aging aircraft. FAA
rules require inspectors to perform aircraft inspections and records reviews, at least
every 7 years, of each multi-engine airplane used in scheduled operations that is
14 years and older. However, the rule does not require a focus on airplane fatigue
cracks or crack growth, and these deteriorations can only be detected through
supplemental inspections (detailed engineering reviews). FAA requires only those
operators using aircraft with 30 or more seats to perform supplemental inspections of
areas susceptible to cracks and corrosion.

The Chalks aircraft involved in the crash did not receive a supplemental inspection
because it was an outdated aircraft model that fell outside of this FAA requirement.
Two months before the accident, FAA did a visual inspection and records review of
the aircraft, and no structural issues were noted. However, the NTSB’s subsequent
investigation determined the probable cause of the accident was the in-flight failure
and separation of the right aircraft wing due to fatigue cracking that went undetected
by FAA and the air carrier’s maintenance program. This incident shows that for those
aircraft only covered under FAA’s requirements for a visual inspection and records
review, the structural integrity of the aircraft cannot be assured. We note that
27 regional operators in Alaska are not required to have any Aging Aircraft Programs.

FAA, Congress, and the aviation industry have made significant strides toward
ensuring the structural integrity of aging aircraft. However, as operators continue to
operate aircraft beyond their original design service goals, aging aircraft will continue
to be an area that bears watching.

Less Stringent Safety Requirements and Oversight of On-Demand
Operators
On-demand operators fly aircraft at the request of their customers and are generally
configured for 30 or fewer passengers. 10 At the request of this Subcommittee, we
recently conducted a review of these types of operations and found that on-demand
operators have more risk in their operating environments and receive less oversight
from FAA. For example, one on-demand operator we visited flew dozens of flights

10
     Both on-demand and commuter carriers are regulated under 14 CFR 135, but commuter operations differ in that they only
     conduct scheduled operations using aircraft with nine or fewer passenger seats.


                                                                                                                        9
daily during the summer to take tourists to glaciers on which the aircraft landed and
took off on skis. This operator flies 17 aircraft and was inspected 8 times by FAA in
2008. In contrast, a Part 121 operator with 10 aircraft, overseen by the same FAA
oversight office, received 199 inspections in 2008. Industry and the NTSB have made
recommendations to strengthen on-demand regulations. While FAA has made efforts
to improve safety and adapt its oversight to the increased complexity of industry
operations, it has not taken substantive action to address these recommendations.

Renewed focus on this issue is needed since higher risks have translated into more
fatal accidents for on-demand operators. Since January 2003, on-demand operators
have been involved in 95 fatal accidents, which resulted in 249 deaths. The number
of fatalities makes it imperative that FAA address three issues we identified regarding
on-demand operations as it plans regulatory and oversight changes for this growing
industry segment.

      First, on-demand operators do not have to meet many of the regulatory
       requirements that mainline and regional commercial air carriers must follow.
       These differences—which include the areas of flight crew requirements, aircraft
       equipment, and maintenance inspections—can impact the safety of on-demand
       flight operations.

      Second, on-demand operators generally have more risk factors in their operations
       and environment than commercial air carriers. For example, they operate shorter
       flights and generally perform more frequent take-offs and landings than larger air
       carriers, which is the most dangerous part of flight.

      Third, FAA oversight of on-demand operators is based on compliance with
       regulations rather than where risk dictates. Conversely, FAA oversight of large,
       commercial air carriers is based on risk assessments. Prioritizing inspections
       based on areas of highest risk is essential for the efficient use of inspection staff
       and resources.

We plan to issue a report on the first phase of our review of on-demand operators by
the end of this month.

Ineffective Utilization of the Aviation Safety Action Program
We recently reported problems in how FAA utilizes ASAP. 11 ASAP is a joint FAA
and industry program intended to generate safety information by allowing aviation
employees to self-report safety violations of regulations to air carriers and FAA
without fear of reprisal through legal or disciplinary actions. When properly
implemented, this program could provide valuable safety data to FAA. We found,

11
     OIG Report Number AV-2009-057, “FAA Is Not Realizing the Full Benefits of the Aviation Safety Action Program,”
     May 14, 2009.


                                                                                                                      10
however, that FAA’s ineffective implementation and inadequate guidelines have
allowed inconsistent use and potential abuse of the program. For example, we
identified repetitive reports of safety violations indicating that pilot training may need
to be strengthened at two air carriers we reviewed.

Further, FAA has limited the program’s effectiveness because it has not devised a
method to fully compile data reported through ASAP and analyze these data on a
national level to identify trends. This impedes a primary intent of ASAP—to identify
precursors of accidents or fatalities. While ASAP has proven highly beneficial to the
airlines, FAA currently obtains only limited aviation safety data through the program
for use in proactively identifying systemic safety issues. For example, FAA
inspectors’ quarterly reports of ASAP activity at participating carriers may only
provide general information on the number—not the nature—of ASAP submissions
for that quarter.

As a result of these issues, ASAP, as currently implemented, is a missed opportunity
for FAA to enhance the national margin of safety. In addition, ASAP is not widely
used by regional carriers. While major carriers view ASAP as an integral safety tool,
37 percent of large regional carriers do not participate in ASAP. In response to our
report, FAA agreed to clarify ASAP guidance and establish a centralized system for
the acquisition and analysis of ASAP and other safety-related information at a
national level. We will continue to monitor FAA’s progress in this area.

Mishandling Internal Reviews of Whistleblower Complaints
Our work at SWA and Northwest Airlines (NWA) 12 has identified systemic
weaknesses in FAA’s processes for conducting internal reviews and ensuring
appropriate corrective actions. In the SWA case, FAA’s internal reviews found, as
early as April 2007, that the principal maintenance inspector was complicit in
allowing SWA to continue flying aircraft in violation of an AD requiring inspections
of aircraft for structural fatigue cracks. Yet, FAA did not attempt to determine the
root cause of the safety issue nor initiate enforcement action against the carrier until
November 2007.

At NWA, FAA’s reviews of an inspector’s safety concerns were limited and also
overlooked key findings identified by other inspectors, such as findings related to
mechanics’ lack of knowledge or ability to properly complete maintenance tasks and
documentation. Although FAA found that some of the inspector’s safety concerns
were valid, FAA informed him that all of his concerns lacked merit.

We also have concerns regarding FAA’s failure to protect employees who report
safety issues from retaliation by other FAA employees. At both SWA and NWA, we

12
     OIG Report Number AV-2007-080, “FAA’s Actions Taken To Address Allegations of Unsafe Maintenance Practices at
     Northwest Airlines,” September 28, 2007.


                                                                                                              11
found that FAA managers reassigned experienced inspectors who reported safety
concerns to office duties, after an alleged complaint from the airline, and restricted
them from performing oversight on carrier premises. Both the SWA and NWA cases
demonstrate that FAA must pursue a more reliable internal review process and protect
employees who identify important safety issues.

Given the vulnerabilities surrounding FAA’s national program for risk-based
oversight, ASAP implementation, and protection of whistleblowers, we have made a
series of recommendations. Key actions needed from FAA include the following:

  Develop a national review team that conducts periodic reviews of FAA’s oversight
   of air carriers.
  Periodically rotate supervisory inspectors to ensure reliable and objective air
   carrier oversight.
  Require that its post-employment guidance include a “cooling-off” period when an
   FAA inspector is hired at an air carrier he or she previously inspected.
  Establish an independent organization to investigate safety issues identified by its
   employees.

In response, FAA has developed a proposed rule requiring a “cooling-off” period for
its inspectors. However, FAA still needs to address our remaining recommendations
to demonstrate its commitment to effective oversight. We will continue our efforts to
examine FAA’s oversight of these segments of the aviation industry and will keep this
Subcommittee apprised of our progress as well as other actions FAA should take to
ensure safety.

OIG PLANS FOR ADDRESSING NEW WORK ON FAA SAFETY
OVERSIGHT
Given the differences in the operating environments among mainline and regional
carriers and vulnerabilities we have previously identified with FAA’s safety
oversight, this Subcommittee requested that we review aspects of pilot training and
rest requirements. The NTSB’s recent hearing regarding the Colgan accident
included evidence suggesting that pilot training and fatigue may have contributed to
the crash. We are in preliminary stages of our review and would like to take this
opportunity to discuss our overall approach.

We are executing this engagement in two stages. The first review concentrates on
several aspects of pilot training. These include FAA oversight of commuter and
regional pilot training, the number of training hours needed before a pilot can assume
pilot-in-command responsibilities, and how U.S. airlines update pilots on the latest
technologies on the aircraft they operate. As part of this review, we are examining


                                                                                    12
FAA’s January 2009 proposed rulemaking on pilot training and evaluating its
potential impact on air carrier training programs at both mainline and regional
carriers. Currently, the comment period on the proposed rule has been extended to the
end of August 2009. We are also reviewing the information pilots are required to
provide airlines and whether it is sufficient to verify pilot employment and training.

Our second review concentrates on regulations covering pilot rest requirements. As
always, Mr. Chairman, we will adjust the focus of our reviews to address any other
specific concerns that the Subcommittee may identify.

CONCLUSION
The importance of airline safety is critical to the Department and the flying public.
We will continue to do our part in advancing the Department’s goal of one level of
safety. While all stakeholders are committed to getting it right, our work has
identified a number of significant vulnerabilities that must be addressed. This will
require actions in areas FAA has already targeted for improvement as well as other
areas where FAA will need to revisit differences in standards and regulations and
rethink its approach to safety oversight.

That concludes my statement, Mr. Chairman, I would be happy to address any
questions you or other Members of the Subcommittee may have.




                                                                                   13
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added here to
accommodate assistive technology.
         Testimony on Regional Air Carriers and Pilot Workforce Issues

                        Section 508 Compliant Presentation

Table 1. Part 121 Accidents Involving Regional Carriers

On February 12, 2009, Colgan Air, Inc. (doing business as Continental Connection)
crashed in Buffalo, New York, causing 50 fatalities. Potential factors of accident are
not yet determined. Training and pilot fatigue issues have been raised.

On August 27, 2006, Comair, Inc. (doing business as Delta Connection) crashed in
Lexington, Kentucky, causing 49 fatalities. Potential factors of accident were pilot
performance and non-pertinent conversation during taxi.

On December 19, 2005, Flying Boat, Inc. (doing business as Chalks Ocean Airways)
crashed in Miami, Florida, causing 20 fatalities. Potential factors of accident were
deficiencies in the company’s maintenance program.

On October 19, 2004, Corporate Airlines (now Regions Air) crashed in Kirksville,
Missouri, causing 13 fatalities. Potential factors of accident were pilots’
unprofessional behavior during the flight and fatigue.

On October 14, 2004, Pinnacle Airlines (doing business as Northwest Airlink)
crashed in Jefferson City, Missouri, causing 2 fatalities. Potential factors of accident
were pilots’ unprofessional behavior, deviation from standard operating procedures,
and poor airmanship.

On January 8, 2003, Air Midwest (doing business as US Airways Express) crashed in
Charlotte, North Carolina, causing 21 fatalities. Potential factors of accident were
deficiencies in company’s oversight of outsourced maintenance.

Table 2. Air Carrier Training Hour Requirements by Aircraft Type

For piston engine aircraft, pilots are required to have 64 hours of Initial Ground
Training, 10 hours of Pilot-In-Command Initial In-Flight Training and Practice, and
16 hours of Recurrent Ground Training.

For turboprop aircraft, pilots are required to have 80 hours of Initial Ground Training,
15 hours of Pilot-In-Command Initial In-Flight Training and Practice, and 20 hours of
Recurrent Ground Training.

For turbojet aircraft, pilots are required to have 120 hours of Initial Ground Training,
20 hours of Pilot-In-Command Initial In-Flight Training and Practice, and 25 hours of
Recurrent Ground Training.
